<html>
<title> - SAFEGUARDING ISRAEL'S SECURITY IN A VOLATILE REGION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





          SAFEGUARDING ISRAEL'S SECURITY IN A VOLATILE REGION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2012

                               __________

                           Serial No. 112-182

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-031 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
EDWARD R. ROYCE, California          ELIOT L. ENGEL, New York
STEVE CHABOT, Ohio                   GREGORY W. MEEKS, New York
RON PAUL, Texas                      RUSS CARNAHAN, Missouri
MIKE PENCE, Indiana                  ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
CONNIE MACK, Florida                 THEODORE E. DEUTCH, Florida
JEFF FORTENBERRY, Nebraska           BEN CHANDLER, Kentucky
MICHAEL T. McCAUL, Texas             BRIAN HIGGINS, New York
TED POE, Texas                       ALLYSON SCHWARTZ, Pennsylvania
GUS M. BILIRAKIS, Florida            CHRISTOPHER S. MURPHY, Connecticut
JEAN SCHMIDT, Ohio                   FREDERICA WILSON, Florida
BILL JOHNSON, Ohio                   KAREN BASS, California
DAVID RIVERA, Florida                WILLIAM KEATING, Massachusetts
MIKE KELLY, Pennsylvania             DAVID CICILLINE, Rhode Island
TIM GRIFFIN, Arkansas
TOM MARINO, Pennsylvania
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                      STEVE CHABOT, Ohio, Chairman
MIKE PENCE, Indiana                  GARY L. ACKERMAN, New York
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
ANN MARIE BUERKLE, New York          BEN CHANDLER, Kentucky
RENEE ELLMERS, North Carolina        BRIAN HIGGINS, New York
DANA ROHRABACHER, California         ALLYSON SCHWARTZ, Pennsylvania
DONALD A. MANZULLO, Illinois         CHRISTOPHER S. MURPHY, Connecticut
CONNIE MACK, Florida                 WILLIAM KEATING, Massachusetts
MICHAEL T. McCAUL, Texas
GUS M. BILIRAKIS, Florida
TOM MARINO, Pennsylvania
ROBERT TURNER, New York















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Elliott Abrams, senior fellow, Council on Foreign 
  Relations......................................................     8
Mr. James Phillips, senior research fellow for Middle Eastern 
  affairs, The Heritage Foundation...............................    14
The Honorable Martin S. Indyk, director, Saban Center for Middle 
  East Policy, The Brookings Institution.........................    23

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Elliott Abrams: Prepared statement.................    10
Mr. James Phillips: Prepared statement...........................    16
The Honorable Martin S. Indyk: Prepared statement................    25

                                APPENDIX

Hearing notice...................................................    42
Hearing minutes..................................................    43

 
          SAFEGUARDING ISRAEL'S SECURITY IN A VOLATILE REGION

                              ----------                              


                      THURSDAY, SEPTEMBER 20, 2012

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. Good afternoon. This is the Subcommittee on the 
Middle East and South Asia of the Foreign Affairs Committee. 
And the subject of our hearing today is ``Safeguarding Israel's 
Security in a Volatile Region.''
    We started the hearing 30 minutes earlier than originally 
scheduled, and we appreciate the panel for being here to 
accommodate members who plan to attend a bipartisan briefing 
with Secretary Clinton and others at 3 o'clock o'clock this 
afternoon. And we may be interrupted by votes shortly as well. 
So we are going to try to get in as much as we can. I want to 
thank our witnesses for agreeing to come in a little early. I 
will try to keep my opening remarks a little shorter than 
usual. I will try to speak faster. And I hope that the 
witnesses will be willing to summarize their statements as best 
they can so that members will have time to ask questions.
    I want to take a brief moment to make a comment about my 
colleague from New York, the ranking member, Mr. Ackerman. We 
are not sure what the future schedule of this subcommittee is 
for the remainder of this Congress, but barring any post-
election activity, this may be the gentleman's last hearing in 
the Middle East and South Asia Subcommittee, a subcommittee, of 
course, that he chaired.
    I have served with the gentleman on this subcommittee for a 
good part of my service in this body. And I have always enjoyed 
working with him. Sometimes I have even agreed with him. Some 
have said that the Congress has lost some of its real 
personalities from a bygone era. Well, I think it would be fair 
to say that my friend from New York is a real personality. 
[Laughter.]
    He will be missed, won't he, Mr. Rohrabacher? And I hope he 
is not a stranger to these halls in the years to come. He 
certainly has been an asset to this institution and as much 
disagreement. We actually have gotten along quite well in this 
committee. And even when we disagree, we haven't been 
disagreeable about it. And he will be missed. And so the best 
of luck in whatever endeavors that you may have in the future, 
Gary. And it has been an honor to serve with you.
    It has been often said that Israel resides in a very tough 
neighborhood. And it has been evident in recent weeks and 
months that Israel's security situation continues to be 
threatened by what could be charitably called political 
instability in the region. Anti-Israel Islamist groups have had 
electoral success in neighboring nations, particularly in 
Egypt, a critical cog for a generation in the Arab-Israeli 
peace process.
    And now Egypt's commitment to preserving stability in the 
Sinai is seriously in question. And its new leadership 
continues to send mixed signals about its intentions toward 
Israel.
    The raging civil war in Syria threatens the stability of 
neighboring Lebanon, where Hezbollah, backed by the mullahs in 
Iran, is more than ready to capitalize. And most recently 
Islamist extremists have violently attacked American facilities 
in the region, destroying property, burning American flags, 
threatening lives, and in Syria murdering four of our finest 
Americans, whose only crime was trying to assist Libyans in 
securing the peace and promoting democracy and fundamental 
human rights in a nation only recently freed from decades of a 
brutal dictatorship.
    Of course, since 2007, Gaza, with its notorious terror 
cells, has been governed by Hamas, a State Department-
designated foreign terrorist organization whose charter calls 
for the obliteration of Israel. Thousands of rocket attacks 
against Israel have been launched from Gaza in the last decade. 
As recently as this summer, an estimated 65 Gaza-launched 
rockets rained in on Israel in a 3-day period. And today more 
weapons to be used against Israel continue to be smuggled into 
Gaza.
    And, finally, the 700-pound gorilla in the room, as we all 
know, is the growing threat of nuclear-armed Iran, led by a 
tyrant who has called for the destruction of the State of 
Israel. As recently as last month, Iran celebrated its annual 
Quds Day, its annual state-sponsored protest against the 
existence of the State of Israel, an event held each year since 
the Islamic Revolution in 1979. Iran's supreme leader at the 
time said that Israel should be wiped off the map. And his 
hateful and dangerous rhetoric is still heard today.
    Here is what Iranian President Mahmoud Ahmadinejad told the 
crowd dotted with ``Death to Israel'' and ``Death to America'' 
signs, ``This was the day of unity among all human beings to 
remove the Zionist black stain from the human society.'' And 
that is the leader of Iran, who may well unless something is 
done to stop him have nuclear weapons in the very near future. 
And this is the Iranian leader we are supposed to trust when he 
says that Iran's nuclear intentions are peaceful.
    At every turn, Iranian authorities have worked to thwart 
the effort of the International Atomic Energy Agency to 
investigate nuclear sites. IAEA investigators report that they 
have been unable to have access to their Fordow site built 
under a mountain near Qum, where an estimated 2,000 centrifuges 
have been installed and at the Parchin military installation 
near Teheran, where a suspected nuclear weapons-related project 
has been covered with shrouding.
    Olli Heinonen, a former top IAEA inspector in a September 6 
Wall street Journal article co-written with Simon Henderson 
from the Washington Institute for Near Eastern Policy, wrote, 
``Judging from this report, Iran seems to be determined to 
achieve the capability of producing nuclear materials suitable 
for nuclear weapons. Whether he has made a decision to produce 
a fully operational nuclear weapon is unclear.'' Not very 
reassuring.
    As one who has always believed that Israel is our closest 
friend and ally in the Middle East, I have grown increasingly 
concerned over the last several months about the future of the 
U.S.-Israel security relationship.
    From what some thought was the administration's clumsy 
response to the Palestinian attempt for statehood recognition 
last September at the U.N. to the most recent dust-ups 
concerning the status of Jerusalem in President Obama's 
campaign platform to the fact that he has, at least at this 
point, been unwilling to meet with the Prime Minister of Israel 
here in the United States, I fear we are sending conflicting 
messages, both to our friends and those of Israel's enemies who 
may question our resolve. I think that would be unfortunate and 
potentially dangerous. I hope it is not the case, but I fear 
that it is.
    We have a distinguished panel of witnesses this afternoon 
who are well-versed on these issues and my colleagues and I 
look very much forward to hearing from them. And I will now 
yield 5 minutes to the ranking member, my friend from New York, 
Mr. Ackerman.
    Mr. Ackerman. Thank you very much. First let me say thank 
you for your very kind comments. I am going to miss this place. 
I am going to miss this committee. I am going to miss you, Mr. 
Chairman, and so many of the members. Actually, I am going to 
miss all of the members that are here.
    I have always found that Members of Congress don't get 
enough credit for being as thoughtful as most of us have been. 
And certainly some of the most thoughtful Members wind up on 
this full committee and specifically on our subcommittee. And 
while we have disagreements sometimes, not as much you and I 
maybe, but among some of the members, it is with the best 
intentions of approving American foreign policy and doing what 
is right in the interest of this country. And I am sure that is 
going to go on without me. And whatever field of endeavor I 
wind up in, I am sure that our paths are going to cross again.
    Today the Middle East is a very different region than the 
one I first encountered as a new Member of Congress in 1983. 
Many of our longstanding relationships are now being recast, a 
democracy and Islam are being forced to engage each other as 
they never before have in the region. Instability and violence 
are now endemic in places that were once stable under the 
concrete blanket of repression. But the fundamentals of Israeli 
security have not significantly changed, even with these 
changes, as well as the transformations created by the Oslo 
peace process and the two Intifadas.
    Israel's first and foundational security principle is that 
Israel must have the means to defend itself by itself. The 
self-reliance has always been at the heart of Israel's national 
identity and the ethos of the Israel Defense Forces, and this 
sense of responsibility has not changed.
    America's primary contributions are financial and 
strategic. Our assistance enables Israel to procure the defense 
equipment that it needs. And, by ensuring that Israel's defense 
capabilities are qualitatively better than potential 
adversaries, we make the conflict less likely. Maintaining 
Israel's qualitative military edge, or the QME, is not only an 
enduring American commitment but a clear self-interest as well.
    Today, the threat of an Iranian nuclear capability looms 
over the entire region and because of the ayatollah regime's 
unceasing animosity toward Israel and to Jews, it poses a 
threat of special significance to the Jewish State. As Congress 
has wrestled with this issue over the years and through the 
course of several administrations, two points have become very 
clear to me. First, anyone genuinely committed to preventing 
Iran from crossing the threshold of nuclear weapons capability 
and avoiding war must support the most crushing, crippling, 
strangulating sanctions possible. Only sanctions severe enough 
to jeopardize the mullahs' grip on power can bring the 
ayatollahs to even consider ending their military nuclear 
program. And that is just a maybe.
    Secondly, we have to stop playing with euphemisms and 
magical thinking. The time for referring to metaphorical tables 
set with options has passed. Likewise, trivializing the term 
``unacceptable'' has to stop. When the President says--and he 
has--that it is unacceptable for Iran to have a nuclear weapon, 
what we are talking about, provided he is not bluffing and the 
Iranians do not change course, is sending our armed forces into 
Iran to attack and destroy key facilities, materials, and 
capabilities. There is a name for such a thing. It is called 
war, and we need to honestly face up to what it could cost us 
in lives, chaos, and cash because that is what averting the 
unacceptable may require.
    As someone who truly believes that Iran must not be allowed 
to acquire a nuclear weapons capability, I think anyone who 
supposes that a strike on Iran will be surgical or a brief 
episode without severe consequences is delusional. And while 
the Iranian threat is of particular salience to Israel, anyone 
who thinks it is just Israel's problem needs to explain why 
Iran has expended such tremendous efforts to develop ballistic 
missiles with ranges well beyond that needed to reach Israel. A 
private conversation with some of our friends in the Gulf might 
also be useful in dispelling the myth that a nuclear Iran would 
change very little in the region already wracked with 
suspicion, instability, and religious tension. This is deadly 
serious business, and it needs to be treated as such.
    At this point, both Arab-Israeli and Israeli-Palestinian 
peace processes are stagnant. I remain convinced, however, that 
for purely self-interested reasons, Israel needs to separate 
itself from the Palestinians and to normalize its relations 
with the Arab states. Common sense tells us that if you need to 
cut a deal, do it when you are strong and the other party is 
relatively weak. Regardless of future leadership, I can not 
foresee a scenario where Israel's current comparative 
advantages, militarily, technologically, demographically, 
economically, or political, would be as good as or better than 
they are now. And I have not heard as yet of any alternative to 
two states that will sustain both Israel's democracy as well as 
its Jewish identity. Time might not be exactly ripe today, but 
I know that if you wait long enough, anything that is ripe will 
get rotten.
    Generations of Israeli leaders have recognized American 
support for Israel as a vital national interest. In addition to 
the many billions in military assistance, the United States 
provides a unique diplomatic shield and leadership in the 
international community. Moreover, while there is no formal 
mutual defense treaty, which is an Israeli preference, it 
should be noted, American leaders have long let it be known 
that any threat to Israel's survival would be a matter of the 
gravest concern for the United States, which substantially 
enhances Israel's own deterrent capabilities.
    For as long as Israeli leaders have recognized that their 
special relationship with the United States is truly a vital 
national interest, they have recognized that it is essential 
for American support to be bipartisan. Israeli leaders, 
regardless of party, have recognized this need and have 
consistently restated that position.
    Sadly, American politics has changed, and Israel's American 
support is challenged by entities openly and aggressively 
seeking to make Israel a wedge issue in American politics.
    The most insidious of these efforts involve characterizing 
as anti-Israel some options that, while different from Israel's 
current government, even though those American opinions easily 
fit within the spectrum of Israel's own Zionist parties, 
agreeing with Ahmadinejad is anti-Israel. Agreeing with Kadima 
or Labor is banal. If unchecked, I fear these smear campaigns 
will not take long to poison the well of bipartisan support 
that Israel has justifiably and critically relied upon.
    I am all in favor, to be sure, of Democrats and Republicans 
competing to highlight their support for Israel. And for more 
than three decades in politics, I am well aware that neither 
campaigns nor public office are meant for the thin-skinned. But 
feckless Israeli appeals for restraint from those intent on 
making Israel an election-year football are insufficient. If 
the bipartisan nature of American support is, as they say, a 
truly vital national interest, then more needs to be done. 
Israel's leaders should carefully consider whether those 
responsible for these wedge campaigns need to be publicly 
condemned and if they persist, isolated from Israel's decision-
makers.
    There are serious challenges facing the region and our two 
nations, most notably, Iran's drive to acquire nuclear weapons, 
which absolutely must be prevented. But unless we look after 
the fundamentals of our relationship, this challenge as well as 
many others will be made much harder than necessary.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much. The gentleman yields back.
    It is the preference of the committee to recognize members 
for 1 minute if they would like to make a statement. The 
gentleman from California, Mr. Rohrabacher, is recognized.
    Mr. Rohrabacher. Yes. And one personality to the other, it 
has been a pleasure kibitzing with you all of this time.
    One question that is clear today. And people want to ask 
it, and they say, ``Should we ask this about foreign policy and 
other policies? Are we better off than we were 4 years ago. I 
think the answer, are we better off in the Middle East? Is 
peace more likely? Is Israel more secure? Is the United States 
more likely to have a good relationship with the countries in 
the Middle East?'' The answer is no. We are not better off 
today than we were 4 years ago. Whatever political implications 
that has, let's face reality.
    We have been for the last 4 years treating our friends like 
enemies and our enemies like friends. And then everybody sounds 
and acts really surprised when that creates a great 
destabilization. And that is what we have experienced in the 
last 4 years, not a destabilization leading to more prosperity 
and a better life for the people but, instead, a 
destabilization that has led to radicalism and a more likely 
chance of conflict in that region.
    I am looking forward to reading your testimony. I am going 
to be running in and out for the next 1\1/2\ hours or so. Thank 
you very much, Mr. Chairman.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The gentleman from New York is recognized if he would like 
to make a statement.
    Mr. Turner. Thank you, Mr. Chairman.
    Last week's events in the Middle East and Africa underline 
the vitriol that America is facing and a sad reminder of the 
state of affairs. For a long time, Iran has made its intentions 
clear to eliminate Israel and to destroy American interests 
abroad. Violent anti-American, anti-Israeli demonstrations have 
continued throughout the Middle East and Asia. And while the 
administration blamed the violence on a movie, it has now 
recanted that, in fact, it was a well-planned terrorist attack.
    Last week's attacks and uprisings are not isolated events 
based on a movie. The underpinnings of these attacks are part 
of an over-arching terrorist philosophy, which lays dormant but 
never quite goes away. They represent a threat to the United 
States and our close ally Israel. And I am looking forward to 
expert testimony in this regard.
    Thank you.
    Mr. Chabot. Thank you very much.
    The gentleman from Nebraska is recognized for 1 minute.
    Mr. Fortenberry. Thank you, Mr. Chairman, for holding this 
hearing to discuss Israel's security situation at a difficult 
time of transition throughout the Middle East. We would like to 
all see a stable and prosperous outcome for the people of this 
region. And the security of our ally Israel is essential to 
achieving that over-arching goal.
    There are so many developments and points of concern lately 
that it is difficult in order to know where to begin, Mr. 
Chairman, but many of the complicated dimensions of the 
region's security situation have a common denominator. And that 
is the Country of Iran.
    The civil war in Syria, where the Assad government is 
closely allied to its patriot in Teheran, poses serious 
international security as well as profoundly grave humanitarian 
concerns.
    After years of outreach by the United States and other 
nations, the quest to find a diplomatic solution to the 
security threat posed by Iran's controversial nuclear program 
remains elusive. The program continues to advance, despite 
multiple rounds of international sanctioned. And, in tandem, 
Iran's regime persists in using hostile rhetoric, posing an 
international and one must assume credible existential threat 
to Israel as well as regional stability in the well-being of 
people throughout the area.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much.
    And the Chair will now introduce the panel. And then we are 
going to have to head over for votes. And we will try to get 
back here right after the votes and get in the testimony then 
and questions because we do have a briefing that I think most 
of us want to attend.
    I will start with Elliott Abrams, who is a senior fellow 
for Middle Eastern studies at the Council on Foreign Relations, 
served as Deputy Assistant to the President and Deputy National 
Security Adviser in the administration of George W. Bush, where 
he supervised U.S. policy in the Middle East for the White 
House. Prior to that position, Mr. Abrams spent 4 years working 
for the United States Senate and served in the State Department 
during the Reagan administration. In 1988, Mr. Abrams received 
the Secretary of State's distinguished service award from 
Secretary George P. Shultz for his work in the State 
Department. Mr. Abrams was educated at Harvard College, the 
London School of Economics, and Harvard Law School. And we 
welcome you here this afternoon, Mr. Abrams.
    Next we will have James Phillips, who is the senior 
research fellow for Middle Eastern affairs at the Douglas and 
Sarah Allison Center for Foreign Policy Studies at the Heritage 
Foundation. He is a former research fellow at the Congressional 
Research Service of the Library of Congress and a former joint 
doctoral research fellow at the East-West Center. He also is a 
member of the Board of Editors of Middle East Quarterly, the 
leading conservative journal of Middle Eastern Policy Studies. 
We welcome you here this afternoon, Mr. Phillips.
    And last, but not least, is Ambassador Martin S. Indyk. 
Martin S. Indyk is vice president and director of the Foreign 
Policy Program at The Brookings Institution. He served as U.S. 
Ambassador to Israel from 1995 to '97 and from 2000 to 2001. 
Mr. Indyk served as Special Assistant to President Clinton and 
Senior Director for Near East and South Asian Affairs at the 
National Security Council from '93 to '95 and Assistant 
Secretary of State for Near Eastern Affairs in the U.S. 
Department of State '97 through 2000. Before entering U.S. 
Government, Mr. Indyk was founding executive director of the 
Washington Institute for Near East Policy for 8 years. 
Ambassador Indyk received a bachelor's degree in economics from 
Sydney University and a Ph.D. from the Australian National 
University. We welcome you here this afternoon, Mr. Ambassador.
    So, as I indicated, we have to head over for votes. That is 
what the buzzers were about there. And so as soon as votes are 
over, we will be back and take your testimony and ask 
questions.
    And at this point, we are in recess.
    [Brief recess.]
    Mr. Chabot. The subcommittee will come back to order. I 
know Mr. Ackerman will be here shortly and probably other 
members as well. We do have a briefing at 3 o'clock o'clock I 
know that a lot of us are interested in. So we are going to get 
right to the panel. We will begin with Mr. Abrams. You are 
recognized for 5 minutes.
    Mr. Abrams. Thank you, Mr. Chairman. It is a pleasure to be 
here.
    I would like to submit my written testimony for the record.
    Mr. Chabot. Without objection, so ordered.
    Mr. Abrams. Thank you.

   STATEMENT OF THE HONORABLE ELLIOTT ABRAMS, SENIOR FELLOW, 
                  COUNCIL ON FOREIGN RELATIONS

    Mr. Abrams. Israel's security, as you mentioned in your 
remarks, is under threat today. Just stand in Israel and look 
around north to the turmoil in Syria; concerns about the future 
of Jordan, recent demonstrations there; the situation in Egypt 
and in Sinai, where there has been great disorder; and, of 
course, the Iranian nuclear program. Seen from Jerusalem, I 
think the region appears to be much more dangerous than it did 
just a few years ago.
    I think there are three key elements to safeguarding 
Israel's security in this new context. The first is the 
military edge, the qualitative military edge. And I think this 
is the part where things are looking pretty good. U.S.-Israel 
military and intelligence cooperation have been very good for 
years. And it remains very good. The President frequently says 
this. And I think it is a fair comment. That cooperation is 
excellent.
    The problem I have is that I think that the administration 
believes that is the end of the story. If you have good 
military and intelligence cooperation, that is it. Israel's 
security is safeguarded. It isn't because I think the second 
element of safeguarding Israel's security is maintaining 
excellent political and personal cooperation between the 
Government of Israel and the Government of the United States.
    But our political and personal relations are not good. In 
fact, they are worse than they have been for many years and, 
arguably, for two decades. The problem, in part, is that that 
military and intelligence cooperation is secret and invisible 
while the political distancing and the political arguments and 
confrontations are very visible, including to Iran. A part of 
the problem is that this distancing is a deliberate policy on 
the part of the administration. There is a very famous incident 
involving the head of the Conference of Presidents of Major 
American Jewish Organizations early in the administration, who 
said that he feared that there would be some daylight and that 
there didn't use to be any daylight and the President's reply 
was under Bush, there was no daylight, but there was also no 
progress, a remark that I think is unfair, but it does I think 
reflect the administration's view that perhaps Israel and we 
would be better off with more distance. Of course, I think we 
have seen that distance, and I think it is very unfortunate 
because in the Middle East, that distance is perceived as a 
source of Israeli weakness. And we have seen this distancing 
not only in the relationship between, unfortunately, the Prime 
Minister and the President but other things.
    For example, I remember last year the administration 
finally vetoed a U.N. Security Council resolution on 
settlements, but then the U.S. delegate delivered an 
explanation of vote that was really an attack on Israel, 
February 18th, 2011. That kind of distancing is noticed. And, 
of course, the distancing on Iran is also noticed between the 
United States and Israel, where we seem to have very different 
views.
    I would think a good way to judge it is what is in the mind 
of the people running the Iranian regime. The people running 
the Iranian regime are not scared. They have moved forward with 
their nuclear weapons program at least since 2003 without a 
pause, enriching more uranium, running more centrifuges in more 
locations, including the underground one at Fordow, so enriched 
uranium, centrifuges, testing more missiles, working on the 
warhead. They are obviously not afraid of us. The messaging 
that they have gotten so far does not lead them to suspend this 
program.
    Very briefly, the third element I think of safeguarding 
Israel's security is a strong policy on our part in fostering 
moderate regimes in the Arab countries that have gone through 
the Arab Spring.
    It was only in July that Secretary Clinton visited Cairo. 
Much of the Coptic leadership would not meet with her. And 
there was a demonstration against her by Egyptians who felt we 
were favoring the Muslim Brotherhood, we have got to give up 
the fight, and we are abandoning secular Egyptians, Centras, 
Copts. That is their view. That is at least bad messaging, but 
I think it also really threatens Israel's security if we are 
not very much in the struggle against radical and Islamist 
governments in the neighboring countries.
    I am out of time, Mr. Chairman. I would be happy to answer 
any questions the committee may have.
    [The prepared statement of Mr. Abrams follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                              ----------                              

    Mr. Chabot. Thank you very much.
    And next we will go to Mr. Phillips for 5 minutes.

  STATEMENT OF MR. JAMES PHILLIPS, SENIOR RESEARCH FELLOW FOR 
        MIDDLE EASTERN AFFAIRS, THE HERITAGE FOUNDATION

    Mr. Phillips. I would like to thank the chairman, members 
of the committee for this opportunity to testify.
    Israel faces many threats to its security, but I would like 
to focus in on----
    Mr. Chabot. Could you pull that mike a little bit closer?
    Mr. Phillips. Okay.
    Mr. Chabot. It will just make folks in the room a little 
easier to hear.
    Mr. Phillips. Okay. And in my written testimony, which I 
would like to submit for the record, I covered some of these 
other threats, but in my oral statement, I would like to focus 
on the Iranian nuclear threat, which I think is the most 
critical long-term threat to Israel.
    Although sanctions have imposed an increasingly steep price 
on Teheran, sanctions alone are unlikely to halt Iran's nuclear 
push any more than they halted North Korea's. Only sanctions 
backed by the credible threat of the use of force are likely to 
dissuade Teheran from continuing on its nuclear path.
    Yet, the administration continues to stress its commitment 
to open-ended diplomacy and reluctance to use the military 
option. Although administration officials dutifully have 
repeated that all options are on the table, they frequently 
have gone out of their way to publicly devalue the prospects 
for success of a U.S. military strike and, to make matters 
worse, have publicly warned against an Israeli military strike.
    This counterproductive behavior only reduces the chances of 
resolving the problem satisfactorily through diplomacy because 
it reduces international leverage on Teheran. By reducing the 
perceived likelihood of a preventive military attack, the 
administration lowers Iran's perceived costs for continuing its 
nuclear efforts. And that ultimately increases the chance of 
war in my estimation, either to prevent Iran from attaining a 
nuclear capability or, worse yet, after it does so.
    Both Jerusalem and Washington have publicly aired their 
differences on Iran, with the administration warning that an 
Israeli preventive strike would be premature and destabilizing 
while the Israeli Government has signaled that it can't wait 
much longer. These increasingly public spats reveal I think a 
glaring lack of trust.
    President Obama and Prime Minister Netanyahu need to forge 
a common understanding of how best to defuse Iran's ticking 
nuclear time bomb and present Teheran with a credible military 
threat to dissuade it from continuing. Absent such a common 
understanding, I think it is increasingly likely that Israel 
will go it alone and launch a preventive strike.
    Instead of pressuring Israel to refrain from an attack, I 
think the administration would be better focused on bringing 
maximum pressure to bear on Iran. And, therefore, I would have 
four recommendations: First, make every effort to present a 
common front against Iran.
    And here I think the White House's rejection of Prime 
Minister Netanyahu's request to meet with the President next 
week during his trip to the U.S. has deepened doubts about 
whether the administration will take timely action to prevent 
Iran from developing a nuclear capability. The President should 
adjust his schedule and meet with the Prime Minister to hear 
out his concerns and address them forthrightly. I think ruling 
out a meeting with Prime Minister Netanyahu sends an 
unfortunate and dangerous signal to Iran that Washington may 
not be serious about halting its nuclear weapons program.
    Secondly, I think the administration should demonstrate a 
greater resolve in halting that program. The administration's 
mantra that every option is on the table has become 
increasingly stale and unconvincing, not only to Israel but to 
Iran. So I think the President should clarify in a public 
statement that he will actually use the military option, if 
necessary, not just leave it on the table. And this will help 
ease Israeli concerns and put greater pressure on Teheran.
    Thirdly, Washington also needs to set strict conditions on 
any last-ditch diplomatic talks. This would help alleviate 
concerns that the administration would paint itself into a 
corner by entering into open-ended diplomatic talks that allow 
Teheran to run out the clock.
    My last recommendation is that the administration should 
recognize Israel's right to take military action in 
anticipatory self-defense. Instead of sniping at the idea of an 
Israeli preventive strike, I think it should acknowledge 
Israel's right to take action against what it regards to be an 
existential threat. This would increase pressure on Teheran and 
disabuse it of any notion that it could depend on Washington to 
restrain Jerusalem. The U.S. does not have the power to 
guarantee that Israel would not be attacked by a nuclear Iran 
in the future. So it should not betray the trust of an ally by 
tieing its hands now. Although an Israeli attack on Iran's 
nuclear program would entail increased risks for the U.S., 
these risks would be dwarfed by the threats posed by a nuclear-
armed Iran.
    I think the bottom line is that Iran defiantly continues to 
enrich uranium; issue threats; and order terrorist attacks, 
including a terrorist attack here in Washington, DC. If Teheran 
is willing to risk such a terrorist attack before it gains 
nuclear weapons, what threats is it likely to pose after it 
attains nuclear weapons? And I think that the U.S., Israel, and 
our other allies can't afford to wait and find out.
    Thank you.
    [The prepared statement of Mr. Phillips follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Chabot. Thank you very much.
    And, Ambassador Indyk, you are recognized for 5 minutes.
    Ambassador Indyk. Thank you very much, Mr. Chairman. Thank 
you for having this hearing.

  STATEMENT OF THE HONORABLE MARTIN S. INDYK, DIRECTOR, SABAN 
    CENTER FOR MIDDLE EAST POLICY, THE BROOKINGS INSTITUTION

    Ambassador Indyk. I think we can all agree that Israel's 
security survival and well-being is of paramount interest of 
the United States. And we can all agree that Iran poses a great 
threat to that objective and that paramount interest of the 
United States. But, starting from that common ground, I will 
tend to differ with the other speakers here in terms of some of 
the things that they have said.
    I have outlined in my written testimony essentially the key 
elements of Israel's deteriorating security situation. And, as 
my friend Elliott Abrams has outlined, it is a very disturbing 
picture on all of Israel's borders that I have laid out there.
    On the other hand, there are factors that should also be 
put into the balance when one looks at Israel's situation. It 
is, by far, the strongest military power in the Middle East. 
And its strength derives in good part from the bipartisan 
support that the Congress has provided for Israel over many 
decades and the support that successive administrations, both 
Republican and Democrat, have provided. And that is no less the 
case, as Elliott has suggested, than for the Obama 
administration.
    And the President, notwithstanding this approach of his in 
the early years of his administration, of seeking to distance 
the United States from Israel in order to carry some favor with 
the Arabs, a theory of the case that I believe was 
fundamentally mistaken, but, nevertheless, while doing that, he 
made absolutely clear, publicly and privately, that he was 
completely committed and steadfast in his commitment to 
Israel's security and did a whole range of things, both visible 
and in the covert realm, to manifest that commitment, to the 
point where you have former Prime Minister, now Defense 
Minister Ehud Barak declaring just last year that the 
relationship between the United States and Israel on the 
strategic level is better now than he can remember.
    And it is all realms, in qualitative military edge, in 
intelligence cooperation, in strategic cooperation, and 
coordination. And it includes cooperation and coordination on 
the common threat that Iran poses to Israel and to the United 
States. And that cooperation recently revealed in a book by 
David Singer on the covert level also extends to 
extraordinarily close coordination on how to deal with Iran.
    Channels have been established for that coordination 
between national security advisers meeting on a monthly basis, 
between the Secretary of State and her counterpart, between the 
Secretary of Defense, between the chairman of the Joint Chiefs 
of Staff and his counterparts. And this has gone on for years 
now. And I think there is a high degree of coordination and a 
high degree of comfort between the two governments in terms of 
common strategy.
    The differences that arise are differences that I believe 
are generated more by the structure of the situation than they 
are by personalities. The structure of the situation is such 
that Israel is threatened on a regular basis with annihilation 
by Iran. Iran cannot threaten the United States with 
annihilation. Israel's margin for security is much less than 
the United States, our thousands of nuclear weapons and our 
distance from Iran. Israel lives in Iran's neighborhood. And 
Israel's particular history as the Jewish state that was once 
destroyed and its people that once were almost destroyed lead 
it to be particularly sensitive about such threats and 
particularly sensitive about capabilities that might back up 
those threats.
    So, as Iran draws closer to the nuclear threshold, Israel 
is inevitably going to be more nervous than the United States. 
The United States, after all, lives with nuclear weapons from 
Pakistan or China, North Korea. Israel could not live in Iran 
with nuclear weapons. And I think that that is understood.
    The President has been very clear in his commitment, which, 
again, I think is a bipartisan commitment, that Iran will not 
be allowed to acquire nuclear weapons. He has built a military 
capability and deployed it to ensure that that will not happen. 
And I think that there is every reason to believe that the 
President is serious in that commitment that he has Israel's 
back.
    [The prepared statement of Ambassador Indyk follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Chabot. The gentleman's time has expired. Thank you 
very much.
    The panel now will have time to ask questions. I will begin 
with myself. I will recognize myself for 5 minutes.
    I would like to ask our witnesses about their views on the 
campaign that we often refer to as the delegitimization of 
Israel, particularly at the United Nations. Year after year, 
more than 25 percent of the resolutions adopted by rollcall 
vote in the General Assembly are aimed at delegitimizing 
Israel. Many are the usual anti-Israel declaratory resolutions, 
but a few, in particular, bear special attention. Those are the 
mandates and funding authorizations that use the U.N. umbrella 
to conduct a worldwide propaganda campaign against Israel. I 
will give just a couple of examples: The Committee on the 
Inalienable Rights of the Palestinian People; another, the 
Division for Palestinian Rights; and, finally, the Special 
Committee to Investigate Israeli Human Rights Practices 
Affecting the Palestinian People.
    My question is, what can we do better at the U.N. to steer 
the U.N. away from its all Israel bashing all the time policies 
or agenda? And what can we do to convince member states, who 
should be voting with us against these resolutions, that, for 
one reason or not, do not? Mr. Abrams, if you would like to 
take that one?
    Mr. Abrams. This has been a long-running battle, Mr. 
Chairman. The problem, in part, is we need to make this a piece 
of our bilateral relationship with those countries, and we most 
often don't do it. We view it as ``Oh, yeah. It is just a U.N. 
vote. It is not a very big deal,'' instead of saying, ``This 
will affect whether your prime minister or foreign minister is 
invited to Washington and whom he or she sees there. This will 
affect your level of foreign aid. This matters to us.'' I think 
they see it as a kind of free vote. And we need to make sure 
that there is a price for those votes.
    Mr. Chabot. Okay. Thank you.
    Let me go to my next question. It is perceived that our 
political relationship with Israel is currently in the worst 
shape in two decades, in the words of Mr. Abrams. In your 
opinion, what is the implied message that Israel received when 
President Obama apparently refused a meeting request for Prime 
Minister Netanyahu? And how do Israel's neighbors in Iran view 
the current state of relations between Israel and the U.S.? And 
how does this impact Israel's security? And I will go to you on 
that, Mr. Phillips.
    Mr. Phillips. Well, I think unfortunately, the way Iran 
would perceive that is drifting away or splitting between U.S. 
and Israel. And that would feed on a sense of weakness. And I 
think that too often, U.S. restraint, either in defending 
vocally its own interests or those of its allies, are perceived 
as weakness in the Middle East and especially by Iran. And I 
think that is one reason I called for the President to 
reconsider his scheduling and meet with the Prime Minister.
    Mr. Chabot. Thank you.
    Mr. Indyk, let me ask you this question. There has been a 
lot of confusion recently about the administration's position 
on Jerusalem as the capital of Israel. There was even a flap 
about this, the convention, and a vote, which many people 
thought the results were not what was reflected on the floor. 
But that happens on the floor here occasionally as well. But, 
nonetheless, it was pretty embarrassing, I thought.
    Is Jerusalem the capital of Israel? And would you like to 
comment on the administration's position on this?
    Ambassador Indyk. As a twice Ambassador to Israel, Mr. 
Chairman, I have learned the hard way that nothing good comes 
of raising this issue. I actually think that people in the pro-
Israel community in this country are completely skeptical of 
this being raised by our Presidential candidates as a way to 
somehow curry favor because they have seen it so many times 
before.
    Every Presidential candidate, Republican or Democrat, says 
that ``Jerusalem is the capital of Israel. And I will move the 
Embassy to Israel if I become President.'' And, lo and behold, 
they could become President. And they find very good reasons, 
the reason to state, not to do anything to recognize Jerusalem 
as Israel's capital. And so, regardless of party, nothing has 
changed on this issue. Regardless of platform, regardless of 
commitments made, nothing has changed on this platform, on this 
policy----
    Mr. Chabot. Okay. My time has actually----
    Ambassador Indyk [continuing]. Since the time that the 
Congress passed legislation----
    Mr. Chabot. Yes. My time has expired.
    Ambassador Indyk [continuing]. To exclude----
    Mr. Chabot. So I want to get the other members. Just let 
me, in conclusion--and I normally ask this in a second panel, 
but we are not going to have time for that--the recent 
instability. I was in Libya about a month ago and had meetings 
in which Chris Stevens was an important part. And I stayed at 
the residence there in Tripoli. And we were at Cairo later on 
in the trip as well. But this was truly a fine individual who 
served our country very, very well. And it is just a terrible 
thing which happened to him and the other diplomats and 
security personnel as well.
    My comment would be that I am very concerned that what we 
are seeing right now with this turmoil in the Middle East is 
the perception at least--whether it is a reality or not we can 
argue but the perception at least that the U.S. is retreating 
from that region, that we are not going to play as big a role. 
And there was this idea from the administration that we are 
going to shift from there to southeast Asia, which is 
important. China is a clear rival. I don't want to say enemy 
but rival for the next 100 years. But nature abhors a vacuum, 
and the vacuum is being filled by elements which are not 
friendly to the United States.
    But I don't really have time to ask for your response. And 
so I will at this point turn to Mr. Ackerman and grant him 5 
minutes.
    Mr. Ackerman. Thank you, Mr. Chairman.
    I still find it intriguing that people who are such really 
brilliant thinkers will sometimes reach conclusions that one 
might legitimately disagree with, spend so much time and energy 
of late--and I underscore ``of late''--trying to blame the 
problems of the world and the region on the current 
administration, rather than try to figure out how we go 
forward. Something bad happens somewhere else because someone 
did this to that. Therefore, how do we blame it on President 
Obama? This is very counterproductive and really not helpful to 
our American interests.
    I mean, the riots in the streets and the discontent over 
whatever the reasons and it is a tinderbox there and it has 
been that way for a long time, to try to blame that on the 
administration is like me trying to blame President Bush for 
Pluto being thrown out of the list of planets or blame his 
father for losing America's Cup. I mean, it makes no sense. 
Things happen during your watch for which you have no 
responsibility.
    And if, indeed, the military relationship between Israel 
and the United States--and if you ask the Israelis, they will 
tell you it is not just good; it has never been better. The 
intelligence-to-intelligence relationship has never been 
better. The cooperation has never been better. The money, 
materiel, and everything else has never been better.
    So the problem is the personalities don't get along. Which 
is more important: The sizzle or the steak? You know, it is a 
public relations thing. You know, you draw the picture of the 
restaurant. You make the steak attractive. Whether it is a real 
steak or not, it doesn't matter. It is the image. And I think 
we are spending a lot of time on the notion, ``Let's discredit 
the administration,'' instead of ``Let's fix the Middle East.''
    Friends of Israel try to make Israel more secure, rather 
than try to make their own country more weak because they may 
not like the administration. The rush to judgment that the 
President isn't as engaged in things, I didn't see that 
happening when President Bush was President for 8 years. There 
was no engagement whatsoever as things slowly started to come 
to the boil that it is at now.
    You know, the question isn't, are we better off now than we 
were--why 4 years ago? How about 5 years ago or 7 years ago? 
You know, it is a political reason to pick the number ``four.'' 
Let's get serious.
    Question. Mr. Phillips, you had said the administration has 
a reluctance to use the military option. Do you think we should 
use the military option? And what day should we use it? Would 
it be a day this month or next month or special day of the 
week? Should it be a Thursday? Should it be the third Wednesday 
after the first Monday in November? Should it be January 24th, 
after the President is sworn in? What day should we use the 
military action? And what day should we announce it?
    Mr. Phillips. Okay. I would not specify a certain day, but 
I would say it should be done before Iran attains enough highly 
enriched----
    Mr. Ackerman. How much? Would you quantify the amount? 
Would you say, ``If you have 27 pounds, 2 ounces''?
    Mr. Phillips. I wouldn't quantify it in such specifics. And 
I understand that the administration----
    Mr. Ackerman. You would say that the military option is on 
the table?
    Mr. Phillips. And it would be used, not just that it is on 
the table but it will be used.
    Mr. Ackerman. Well, if it is on the table, you know, you 
don't set the table unless you are going to eat the meal.
    Mr. Phillips. No. You don't always use every implement that 
is on the table, though, when the table is set.
    Mr. Ackerman. Did President Bush say he was going to use 
the military option or did he just say there should be a two-
state solution?
    Mr. Phillips. Well, I think he did support the two-state 
solution, but----
    Mr. Ackerman. No. He created the two-state option. He is 
the one who first announced it. No President had uttered those 
words before,----
    Mr. Phillips. Yes.
    Mr. Ackerman [continuing]. Democrat or Republican. I am not 
blaming President Bush. I am just pointing out that the 
pointing fingers is not really helpful.
    Now, how do we fix this? How do we get Iran--I think--and 
maybe it is because I am prejudiced--but I really believe that 
we have to be constantly engaged in the region. I don't believe 
we could move forward using a military option without putting 
together a coalition of support, both for ourselves and Israel, 
for the region's sake and the world's sake, which would include 
some of our Islamic friends and some of our Arab friends. How 
do you do that unless you demonstrate that you are willing to 
talk for us, rather than just burst into somebody's country 
without giving peace a shot?
    Mr. Chabot. The gentleman's time has expired. Was that 
question directed at anyone in particular?
    Mr. Ackerman. Only if somebody knows how to answer it?
    Mr. Chabot. Does anyone know how to answer it?
    Mr. Abrams. Very briefly, I would say, Mr. Ackerman, it is 
not going to work unless the Iranians believe it. And today 
there is no evidence that they believe that there is a real 
risk of an American military attack. Until they believe that, I 
don't think the negotiations are going to go anywhere.
    Mr. Phillips. I would just say that it is not just Israel 
that is threatened by an Iranian nuclear weapon. There are many 
Arab allies, too, that are equally concerned and----
    Mr. Ackerman. But they have asked us to try to use the 
negotiation process first to try to----
    Mr. Phillips. Yes. And behind the scenes, they say other 
things. I mean, this isn't----
    Mr. Ackerman. Oh. Everybody would be happy if we--most 
people would be happy to do that. Most of them agree that they 
would be thrilled in the morning having the dream at night come 
true that Israel wiped out, but they can't really say it. But 
we have to line them up because they are responsible to their 
streets as well. And their street wants to see a little talk 
before we invade some country.
    Mr. Chabot. Ambassador Indyk, if you could comment very 
briefly?
    Ambassador Indyk. I will be very quick, Mr. Chairman. Thank 
you for the opportunity.
    I think, first of all, that the military option is a real 
option. I think that the Iranians can see exactly what we have 
deployed around them in terms of the two carrier battle groups 
that are now off the shores of Iran, including the array of 
aircraft that we have deployed in the region. It is a robust 
military option that the Israelis also recognize as a robust 
military option.
    So I think that the deployments are far more important than 
the words, but I agree with Congressman Ackerman that if it is 
going to come to war with Iran--and I fear that it will, next 
year--then we have to be able to show, not just for the 
international community but for the people of this country who 
have been supporting wars in the greater Middle East for more 
than 10 years--that we have done everything possible to try to 
convince the Iranians to make a strategic decision to give up 
their nuclear weapons aspirations.
    And if we fail at that, then we will be justified. And I 
believe we will have the American people behind us to use the 
military option that has already been developed.
    Mr. Chabot. The gentleman's time has expired. The chair 
would just note in a very quick response to the gentleman's 
point about being critical of this administration about things 
happening around the world, I would just note that when the 
Bush administration was in charge and the folks from the other 
side of the aisle were in charge of this committee and other 
committees, there was no restraint in criticizing Mr. Bush for 
everything that was happening around the world. So it is not 
unusual to do that.
    Mr. Turner from New York is recognized for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    Many of our diplomatic and economic options are pretty much 
exhausted. We have been doing this for quite a while. The 
question was raised, at what point should our conversations 
begin with the strategic and tactical?
    The centrifuges produce so many grams of fissionable 
material, high-grade, per week. I think we know how many we 
have. Somebody can do the math.
    Last year, late last year, at some of these committee 
hearings, we were told September is the critical month. They 
would have enough material there to produce two implosive type 
devices. I don't know what has changed, but it seems that the 
clock is running out. And when is a kitten a cat? More than 8 
weeks but certainly not a year. This kitten is getting pretty 
fat.
    What is the date? We do know. Somebody knows. I don't know 
if the CIA has been that forthcoming on what they know or even 
the Israelis on when this material is producible. And the 
production facilities are only in three sites. What are our 
plans? And what are the consequences? Who is doing this or who 
should be doing this?
    Anybody like to comment, please? Mr. Ambassador?
    Ambassador Indyk. Well, I think the first response would be 
that Iran does not today have a nuclear weapon. According to 
the IAEA, which has inspectors on the ground and is able to 
measure their stockpiles, those stockpiles are growing. And 
they have--I think it is roughly enough low-enriched uranium if 
it were enriched to high-enriched, weapons-grade uranium to 
build perhaps four or five bombs, but it has to be enriched 
from 3.5 percent to over 90 percent in order for them to be 
able to make a nuclear weapon. And that is the critical 
difference.
    And I agree with you that they are advancing toward that 
threshold. And they are also enriching to 20 percent. And they 
have now in terms of enrichment of 20 percent. They are moving 
toward one bomb's worth. They are doing that in a deeply 
embedded facility in Fordow, which will be hard to destroy from 
the air but not impossible by the United States.
    So all of these things are very disturbing, which is why I 
say I think we are entering the period in 2013 where if we fail 
to convince Iran that it will be far worse off if it continues 
down this track than if it decides to make a strategic decision 
to give up its nuclear weapons aspirations.
    But if we fail at that--and I think it is more likely that 
we will fail--then we are going to be in a situation next year 
where we will have to make a very hard decision, whether it is 
to let Israel take care of its problem or whether we decide to 
take care of the problem ourselves. And I think we should. It 
is not just a threat to Israel, but that decision doesn't have 
to be made now. There is still time to test whether we can turn 
the Iranians around. There is not a lot of time.
    Mr. Turner. If I may? Mr. Abrams, do you concur that this 
should be given more time? Is there any softening? Is there any 
hope?
    Mr. Abrams. There has been no softening in the Iranian 
position. I think it has been a great disappointment to the 
European negotiators, in particular, that when we have met over 
the past year, they have gotten nothing from Iran. The Iranians 
have not budged.
    I think that one cannot pick a sort of magic date and say, 
``It is February 15th, no problem on the 15th, great danger on 
the 16th.'' You can't do that. But we are approaching first the 
point at which they will have everything they need to make a 
series of deliverable nuclear weapons.
    And, second, of course, we are approaching the point at 
which Israel will no longer be able to act. And then Israel 
needs to make a decision before we do.
    I would agree with Ambassador Indyk it is really very odd 
for us as a great superpower to say, ``This is a global 
problem, with which we are deeply engaged. But we are not going 
to handle it. We are going to just turn it over to a nation of 
7 million.'' Now, I would hope that if we reach that point, the 
United States makes the decision, rather than handing it to 
Israel.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from Florida, Mr. Deutch, is recognized for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Abrams, I think your characterization of the 
administration's position is just wrong. I don't believe that 
the administration's position is that this is only a problem 
for Israel that should be handled by Israel. I think that the 
President's position, as he has outlined repeatedly, is that 
this is a global problem, that this is a problem that the 
United States is prepared to use military force to handle. And 
the difference between Mr. Phillips saying that every option is 
on the table and saying that that includes military options and 
saying, ``I am willing to use it'' I think gets at the bigger 
point I wanted to raise with you, Mr. Abrams, which is, you 
know, on this committee, we spend a lot of time working in a 
bipartisan way on these issues, trying to pass, as we have done 
multiple times, tough sanctions after more tough sanctions, 
funding issues, working to ensure that Israel's security 
assistance remains in place. And that support that you see in 
this committee is consistent with the history of the support in 
this body for the security of the State of Israel.
    Now, suggesting, as you do in your testimony, that while it 
is true that the military cooperation, intelligence cooperation 
is the best it has ever been, that, despite our deficit, we 
have managed to increase security assistance to Israel to 
unprecedented levels, hundreds of millions of dollars 
additional for Iron Dome and other missile defense systems, 
which I would point out are saving Israeli lives right now, 
conducting the largest showing military exercises, while all of 
that is true, as you acknowledge, you seem to dismiss it in 
your testimony as well, ``Any administration would do that.'' 
And what we also need to look at, you tell us, is the politics 
of the relationship. And that is what I would just like to 
pursue a bit with the panel.
    For those of us who work so hard and struggle so hard to 
make this a bipartisan issue, I wonder whether you would agree 
that in terms of ensuring that bipartisan support, that, 
despite everything we both agree that this administration has 
done for Israel, that for the Republican nominee for President 
to announce to the world, not just to his convention but to the 
world, that the United States, the United States, despite 
everything we agree has happened, has thrown Israel under the 
bus, injects into the relationship the type of politics 
heretofore unseen. We have never seen that type of politics in 
the middle of this relationship. That is number one.
    I wonder if you would agree with me that since politics is 
a fundamental part, according to your testimony, of the 
relationship, that that type of politics raises issues around 
the rest of the world that calls into question that bipartisan 
support that has historically existed and that exists, even 
today; and that, number two,--and I would open this to anyone 
on the panel--I wonder if you also think that it is 
appropriate. I would just like an honest assessment of this. 
Along the same lines, given the importance of the politics and 
the bipartisan nature of the relationship, I wonder if it is 
appropriate for a political group to support a candidate in the 
Presidential election using footage of the Prime Minister of 
Israel. I just worry about what that does to infect the 
political process, how that seeps into even some of the 
discussion that takes place here.
    Mr. Abrams. Well, I will take a first crack at it, Mr. 
Deutch. I would bet that if you go back to the Clinton 
campaign, you will find criticism of the way the George H. W. 
Bush administration dealt with Israel. If there wasn't, there 
should have been in my opinion. And I don't think that is off 
limits. We want bipartisanship, but we also have the right to 
say a policy is wrong. It is wrong for--let me just say the 
chairman of the Joint Chiefs----
    Mr. Deutch. I am going to stop you for 1 second. I have got 
to stop you for a second because there is a fundamental 
difference. You have to agree there is a fundamental difference 
with questioning the policy. I don't have any objection to 
that. I have no objection with questioning a policy of this 
administration or any other on Israel or any other issue. There 
is a difference between questioning a policy and the approach 
that an administration takes and a blanket statement that this 
administration has, despite everything that you and I agree has 
happened has, nevertheless, thrown Israel under the bus.
    Mr. Abrams. Well, I don't agree. And I think that we are in 
the middle of a political campaign. And what you are asking, in 
essence, is that there not be politics. There is going to be 
politics.
    I worked for Ronald Reagan and George W. Bush. And I laugh 
when I hear people say, frankly, that politics stopped at the 
water's edge when they were running for President. That is not 
what I recall. I recall vicious attacks on their foreign 
policy.
    And just one tiny comment on the Iran sanctions. What you 
have done on Iran sanctions is fabulous. And you know better 
than I do that in many cases, you were fighting the White House 
to get those Iran sanctions through, and they were trying to 
hold you back. So they don't get credit for that. You get 
credit for it.
    Mr. Chabot. The gentleman's time has expired, but the 
gentleman, I will give him an additional 30 seconds.
    Mr. Deutch. I appreciate it, Mr. Chairman.
    Mr. Abrams, two things I would note. First of all, those 
tough sanctions that we passed don't become law because the 
House passes them and the Senate passes them. They become law 
because they are passed in the Congress and the President signs 
them. That is number one.
    Number two, all of the tough sanctions that have been 
imposed are imposed again not because they are in a law but 
because the administration imposes them. I wish--and I will 
just finish with this, Mr. Chairman. I wish that sanctions had 
been imposed in a serious way under the last administration or 
the administration before that, frankly. Finally they are being 
imposed and we are seeing the results.
    And I would love to continue this conversation when we have 
an opportunity.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from Pennsylvania is recognized for 5 minutes.
    Mr. Marino. Thank you, Chairman.
    Mr. Indyk, I am going to play a little devil's advocate 
here with you. You stated, I think it was--I don't know who my 
colleague was that--I think it was Mr. Ackerman brought some 
issues up concerning time, but how much time do you think we 
have left with Iran? When will we know the time is right to 
react to the situation, whatever the moment calls for? Is it, 
again, a day? Is it next month? Is it 6 months from now? Put 
not necessarily a time limit, but give me some facts that will 
indicate the time to move was based on certain points.
    Ambassador Indyk. Well, I think the clearest answer that I 
can give you, Congressman, is that the time to strike would be 
in my opinion when we saw Iran enriching uranium to 90 percent.
    Mr. Marino. Do you think we have our arms around that? Do 
you think we really know what is going on over there as far as 
what has been enriched and what will be enriched in the near 
future?
    Ambassador Indyk. We do now because we have inspectors 
there who are able to measure.
    Mr. Marino. I am sorry. I can't help but chuckle a little 
bit. Do you think the Iranians are going to actually open up 
everything to the inspectors?
    Ambassador Indyk. Well, it is always possible, of course--
--
    Mr. Marino. Yes, of course.
    Ambassador Indyk. Excuse me, Mr.----
    Mr. Marino. Of course.
    Ambassador Indyk. It is always possible that the Iranians 
have clandestine production. That is certainly possible. They 
certainly have tried to do things in a clandestine way. But we 
have been able to discover them. And the fact that there are 
inspectors on the ground and intensive efforts by the United 
States, by Israel, and by allied intelligence services to watch 
them like a hawk, I think there is a degree of confidence that 
we do know. But, of course, there could be places where it is 
being done.
    But let me say that a military----
    Mr. Marino. I only have 1 more minute.
    Ambassador Indyk [continuing]. A military strike is not 
going to find those. By definition, we are not going to be able 
to solve that problem with a military strike.
    Mr. Marino. So your position is that we wait until some way 
it is proven that they have enough of the uranium that they 
need to produce a bomb?
    Ambassador Indyk. Yes. I think that the difference between 
what I understand to be your position and my position could be 
all of 6 months. I said very clearly that I think next year is 
the time when we will come to a conclusion as to whether the 
Iranians are willing to make a strategic decision to give up 
their nuclear weapons, believe it or not.
    Mr. Marino. If I were a betting man, I would not bet on the 
Iranians.
    Ambassador Indyk. I am not betting. I am not a betting man.
    Mr. Marino. Mr. Obama, President Obama, suggested that the 
borders in Israel move back to the pre-1967 lines, leaving 
Israel less than 9 miles wide. Ambassador Abrams, could you 
give me some insight on that, please?
    Mr. Abrams. Well, I think the Israeli objection, 
Congressman, is that that kind of gives away a negotiating 
position for them. They will want to negotiate to some extent 
from where they are, not from borders that the United States, 
among others, have said are impossible to defend. And their 
objection to what the President said was that it suggested that 
you start not today but in '67. And that puts them at a 
disadvantage.
    Mr. Marino. Mr. Phillips, why should the United States not 
respect Israel's sovereign decision concerning Jerusalem as its 
capital?
    Mr. Phillips. I think it should respect. I think every 
country should be able to determine where its capital is, 
although, you know, I understand that Jerusalem does have 
aspects in east Jerusalem. But to me, you know, I think we 
should recognize west Jerusalem as Israel's capital, but I 
don't think there is a reason not to aside from the peace 
process, which I don't see going anywhere too fast anyway, that 
there is a reason not to respect that.
    Mr. Marino. And----
    Mr. Chabot. The gentleman's time has expired. I will give 
him an additional 30 seconds if he wanted to make a final 
point.
    Mr. Marino. Just one final point. In the Oval Office in 
March 2001, 6 months before 9/11, President Bush told Sharon 
that he, Bush, will use force to protect Israel.
    I yield my time back.
    Mr. Chabot. Okay. The gentleman yields back. And the 
gentleman from the Commonwealth of Virginia, Mr. Connolly, is 
recognized for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman. And welcome to the 
panel.
    Just an observation, maybe particularly for you, Mr. 
Abrams. You and I go back a long time. There are a lot of us on 
both sides of the aisle with staunch 100 percent voting records 
in support of Israel. I think my colleague Mr. Deutch was 
making a broader point then--because your point is well-taken, 
shock, shock, politics in an election year, but there ought to 
be limits, self-imposed limits. Questioning the motivation of 
the President of the United States with respect to Israel and 
actually saying he is compromising the security of another 
sovereign state is a very serious charge. And once the dust 
settles from an election, the consequences of that--if we want 
to make this a partisan issue, the only loser in that is 
Israel.
    And so I would just suggest, respectfully, that both sides 
need to show some restraint, even in the political arena, when 
it comes to this delicate subject matter, for the sake of the 
security we seek to protect, just an observation.
    Mr. Ambassador, you were starting to say in response to one 
of my colleagues' queries we have time, not a lot of time but 
some time. And I think you were referring to the red line. I 
want to give you an opportunity maybe to expand on that. It 
would appear, you know, that there is a difference between 
Israel and the United States on where that red line ought to 
be, not on the ultimate goal. And, to my way of thinking, not 
unsympathetically, Israel has more reason to be concerned 
immediately than we do. And, therefore, some deference might be 
shown to their anxiety about where the red line is. And we have 
got to be ever vigilant and ever sensitive about that. On the 
other hand, we have to protect U.S. interests and not run pell-
mell into yet another war in the Middle East.
    Your views on that difference between the red line? And I 
welcome the other panelists as well, but I thought I would 
start with the Ambassador since I think you were starting to 
talk about that.
    Ambassador Indyk. Thank you, Mr. Connolly.
    I think that what I was trying to say was that there is a 
structural difference between a small power living in Iran's 
neighborhood and a superpower that doesn't live in that 
neighborhood. And it is all the difference in the world when it 
comes to crossing red lines.
    We naturally can survive with a greater degree of ambiguity 
and a greater assurance that we can take care of the problem if 
Iran tries to break out. Israel has greater difficulty doing 
that. And given its more limited military capabilities, by 
definition, because it is a small power, regional power, it has 
naturally to want to go earlier in terms of using force.
    If you look at what Israel did in the case of the Iraqi 
nuclear reactor and the Syrian nuclear reactor, they attacked 
at points where their nuclear programs were far, far less 
advanced than the Iranian nuclear program. So they have 
actually been exercising a good deal of restraint, partly 
because we are telling them to do so, partly because they 
recognize that in the case of Iran, it is not a clear shot. And 
there are a lot of other interests and other powers that have 
interest at stake and that it is not just about Israel and that 
it is from their point of view important that this be an 
international responsibility, not just an Israeli's 
responsibility. And, frankly, they have succeeded in making 
that case and getting the international community, led by the 
United States, to take on this responsibility in a much more 
serious way than would have been the case if the Israelis 
hadn't been saying, ``We are going to do something about this 
if you don't.''
    But now we are reaching a kind of crunch point. And 
essentially what the Prime Minister of Israel is saying is, ``I 
am going to lose my chance to act independently, to defend my 
country by myself. And I am then going to have to put the fate 
of my country in the hands of another leader. And that is a 
very difficult proposition for an Israeli prime minister to 
handle.'' And I think that is why we have seen the Prime 
Minister say some things which I think were impolitic because 
of the nervousness that he feels about this.
    Mr. Connolly. And I respect very much what you said. I 
would note, however, that his is not the only voice in Israel. 
There are many other Israeli leaders, very high-level leaders, 
who would take issue, respectfully, with the Prime Minister on 
this issue. So it is not that there is only one point of view.
    Mr. Chabot. The gentleman's time has expired.
    Mr. Connolly. Thank you, Mr. Chairman. And I am sorry the 
other panelists didn't get a chance to maybe comment on that.
    Mr. Chabot. I can give you 30 seconds if you would like to 
extend that.
    Mr. Connolly. I would so much appreciate that.
    Mr. Chabot. Okay. Either 30 seconds, Mr. Abrams or Mr. 
Phillips?
    Mr. Abrams. Sure. I find myself in a very good bipartisan 
agreement with Martin Indyk on this. I think you used the word 
``structural'' before. There is a mismatch here between the 
moment that the Israelis have to act and the pledge they want. 
If they want a pledge from any President of the United States 
that by a date certain, we will attack another country, they 
are not going to get it. No President would give it to them. I 
understand why they are asking.
    I would just say on the question of Israeli agreement and 
disagreement, there is some disagreement on timing. I think 
many of the people who were saying, ``This is not the moment to 
act against Iran'' believe that next year is the moment to 
attack. When I talk to many of the retired military people, I 
find unanimity that unless the United States can solve this 
problem, they will have to address it themselves next year.
    Mr. Chabot. The gentleman's time has expired.
    In wrapping up, the chair would just note for the records 
that there are four chairs there at the table. Only three of 
them are occupied. The subcommittee extended an invitation--no, 
we are not having a mystery actor coming in, but the 
administration was extended an invitation to testify here this 
afternoon, and they declined to testify this afternoon.
    And, then finally, members will have 5 days----
    Mr. Connolly. Mr. Chairman?
    Mr. Chabot [continuing]. To amend their remarks or to 
submit materials for the record.
    Yes?
    Mr. Connolly. Mr. Chairman, I just want to say to you this 
is the second subcommittee hearing I have been to in the last 
week in which the administration has declined to participate on 
this committee. And, you know, I was a staffer in the Senate. I 
just don't think that is acceptable. You know, when a committee 
is trying to pursue in this case a profound policy issue, I 
think they need to be at the table.
    Mr. Chabot. Yes.
    Mr. Connolly. And I am distressed. There may be 
circumstances. I don't know. But I am distressed that the 
administration is not sending witnesses at the request of the 
subcommittee. And I would certainly join the chairman in 
renewing such request.
    Mr. Chabot. Thank you. And once again I find myself in 
complete agreement with the gentleman from Virginia. So it is 
bipartisan. And is the spirit moving the gentleman from New 
York here his last meeting?
    Mr. Ackerman. It sounds like you guys have got the same 
complaint as the Prime Minister.
    Mr. Chabot. I guess we do. All right.
    Well, if there is no further business to come before the 
committee--and once again we extend the best wishes to Mr. 
Ackerman in the future--we are adjourned.
    [Whereupon, at 3:16 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
